No. _________
IN THE SUPREME COURT OF THE UNITED STATES

WALTER MANUEL MARQUES-MEJIA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Adam Nicholson
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Adam Nicholson **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24097045
525 S. Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit,
United States v. Walter Manuel Marques-Mejia, 828 F. App’x 208 (5th
Cir. 2020), CA No. 20-10973, Court of Appeals for the Fifth Circuit.
Judgment affirmed on June 2, 2021.
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas, United States v. Walter Manuel MarquesMejia, 3:19-CR-00661-E. Judgment and sentence entered on
September 25, 2020.

APPENDIX A

Case: 20-10973

Document: 00515884446

Page: 1

Date Filed: 06/02/2021

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED

No. 20-10973
Summary Calendar
___________

June 2, 2021
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Walter Manuel Marques-Mejia,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-661-1
____________________________
Before Wiener, Southwick, and Duncan, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

Case: 20-10973

Document: 00515884401

Page: 1

Date Filed: 06/02/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

June 2, 2021

No. 20-10973
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Walter Manuel Marques-Mejia,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-661-1
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Defendant-Appellant Walter Manuel Marques-Mejia was convicted
of one count of illegal reentry into the United States under 8 U.S.C. § 1326(a)
and (b)(1) and sentenced to serve an above-guidelines prison term of 60
months as well as a three-year term of supervised release. He argues that his

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10973

Document: 00515884401

Page: 2

Date Filed: 06/02/2021

No. 20-10973

sentence is procedurally unreasonable because the district court did not
explicitly address his plea for a within-guidelines sentence and did not
adequately explain the choice to give an above-guidelines sentence. He
further argues that the sentence is substantively unreasonable because it was
greater than needed to achieve the sentencing aims of 18 U.S.C. § 3553(a).
Finally, he contends that § 1326(b) is unconstitutional, but acknowledges that
his argument is foreclosed by Almendarez-Torres v. United States, 523 U.S.
224 (1998).
We review sentences for reasonableness in light of the sentencing
factors set forth in § 3553(a). Gall v. United States, 552 U.S. 38, 46, 49-50
(2007). Where an issue has not been preserved, however, we review only for
plain error. United States v. Fuentes, 906 F.3d 322, 325 (5th Cir. 2018). Under
the bifurcated review process of Gall, we first examine whether the district
court committed procedural error. 552 U.S. at 51. When sentencing, a judge
should give enough reasons to show “that [he or she] has considered the
parties’ arguments and has a reasoned basis for exercising [his or her] own
legal decisionmaking authority.” Rita v. United States, 551 U.S. 338, 356
(2007).
If the sentence is procedurally reasonable, we review it for substantive
reasonableness in light of the § 3553(a) factors. Gall, 552 U.S. at 51. In
reviewing a non-guidelines sentence for substantive reasonableness, we
“consider the totality of the circumstances, including the extent of any
variance from the Guidelines range.” United States v. Brantley, 537 F.3d 347,
349 (5th Cir. 2008) (internal quotation marks and citation omitted). A
sentence is substantively unreasonable if it ignores a factor that should have
been given considerable weight, gives considerable weight to an improper
factor, or is the result of “a clear error of judgment in balancing the
sentencing factors.” United States v. Chandler, 732 F.3d 434, 437 (5th Cir.
2013) (internal quotation and citations omitted). Alone, the defendant’s

2

Case: 20-10973

Document: 00515884401

Page: 3

Date Filed: 06/02/2021

No. 20-10973

disagreement with the sentence selected by the district court does not
warrant reversal. United States v. Ruiz, 621 F.3d 390, 398 (5th Cir. 2010); see
Gall, 552 U.S. at 51.
Marquez-Mejia did not raise his challenge to procedural
reasonableness in the district court. We review that argument for plain error.
See Fuentes, 906 F.3d at 325.
The record shows that the district court gave due consideration to the
§ 3553(a) factors, including those emphasized by Marques-Mejia, before
imposing sentence. The court did not explicitly reject his arguments in favor
of a within-guidelines sentence, but it was not required to do so. See Rita, 551
U.S. at 359. Additionally, the district court’s reasons show that it properly
grounded its choice of sentence in Marques-Mejia’s criminal history as well
as the need for deterrence and protection of the public. Marques-Mejia has
not shown that his sentence is procedurally unreasonable. See Rita, 551 U.S.
at 359, 356; United States v. Fraga, 704 F.3d 432, 439 (5th Cir. 2011).
He likewise has not shown that his sentence is substantively
unreasonable. The record reveals no error in the district court’s
consideration of sentencing factors. See Chandler, 732 F.3d at 437. Rather,
the record shows that the district court considered the § 3553(a) factors and
concluded that they favor an above-guidelines sentence. Additionally, the
sentence is similar to others this court has affirmed. See Brantley, 537 F.3d at
349-50; United States v. Lopez-Velasquez, 526 F.3d 804, 807 (5th Cir. 2008);
United States v. Smith, 440 F.3d 704, 708-10 (5th Cir. 2006). MarquesMejia’s contentions show no more than a disagreement with the district
court’s weighing of the § 3553(a) factors, which is not enough to show error.
See Ruiz, 621 F.3d 390, 398.

3

Case: 20-10973

Document: 00515884401

Page: 4

Date Filed: 06/02/2021

No. 20-10973

Finally, Marquez-Mejia’s challenge to 8 U.S.C. § 1326(b), which is
grounded in Apprendi v. New Jersey, 530 U.S. 466 (2000), is foreclosed by
Almendarez-Torres v. United States, 523 U.S. 224 (1998).
AFFIRMED.

4

APPENDIX B

Case 3:19-cr-00661-E Document 37 Filed 09/25/20

Page 1 of 6 PageID 77

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

§
§
§
§
§
§
§

UNITED STATES OF AMERICA
v.
WALTER MANUEL MARQUES-MEJIA

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:19-CR-00661-E
USM Number: 09026-579
Juan Gabriel Rodriguez
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S. Magistrate

☒ Judge, which was accepted by the court.
☐
☐

Count 1 of the Indictment filed on December 18, 2019

pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not guilty

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
8 USC § 1326(a) Illegal Reentry After Removal from the United States

The defendant is sentenced as provided in pages 2 through
to the Sentencing Reform Act of 1984.

Offense Ended

Count

07/13/2018

1

of this judgment. The sentence is imposed pursuant

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

September 18, 2020
Date of Imposition of Judgment

Signature of Judge

ADA BROWN
UNITED STATES DISTRICT JUDGE
Name and Title of Judge

September 25, 2020
Date

Case 3:19-cr-00661-E Document 37 Filed 09/25/20

Page 2 of 6 PageID 78

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 6

WALTER MANUEL MARQUES-MEJIA
3:19-CR-00661-E(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker, and
considering the factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United States
Bureau of Prisons to be imprisoned for a total term of: Sixty (60) months as to Count 1.

☐ The court makes the following recommendations to the Bureau of Prisons:

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

☐

a.m.

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:19-cr-00661-E Document 37 Filed 09/25/20

Page 3 of 6 PageID 79

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 6

WALTER MANUEL MARQUES-MEJIA
3:19-CR-00661-E(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Three (3) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
4.

☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
5.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:19-cr-00661-E Document 37 Filed 09/25/20

Page 4 of 6 PageID 80

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 6

WALTER MANUEL MARQUES-MEJIA
3:19-CR-00661-E(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:19-cr-00661-E Document 37 Filed 09/25/20

Page 5 of 6 PageID 81

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 6

WALTER MANUEL MARQUES-MEJIA
3:19-CR-00661-E(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments page.

TOTALS

Assessment
$100.00

Restitution
$.00

Fine
$.00

AVAA Assessment*
$.00

JVTA Assessment**
$.00

☐ The determination of restitution is deferred until


An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☒

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☒ the interest requirement is waived for the
☐ fine
☒ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
*** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:19-cr-00661-E Document 37 Filed 09/25/20

Page 6 of 6 PageID 82

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 6

WALTER MANUEL MARQUES-MEJIA
3:19-CR-00661-E(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐ Lump sum payments of $

due immediately, balance due

☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.


Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment, (5) fine
principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs, including cost of prosecution and court
costs.

